No. 19-840
IN THE

Supreme Court of the United States
CALIFORNIA, ET AL.,
Petitioners,
v.
TEXAS, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this
Court, and that I have this 13th day of May 2020, caused three copies of the Brief Amici
Curiae for Bipartisan Economic Scholars in Support of Petitioners to be served via
overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
Samuel Passchier Siegel
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for California, et al.
Counsel for United States, et al.
Kyle Douglas Hawkins
Texas Attorney General’s Office
300 W. 15th Street
Austin, TX 78701
(512) 936-1700
kyle.hawkins@oag.texas.gov

Robert Earl Henneke
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
rhenneke@texaspolicy.com

Counsel for State of Texas, et al.

Counsel for Neill Hurley and John
Nantz

Douglas Neal Letter
219 Cannon House Office Building
Washington, DC 20515-6532
(202) 225-9700
douglas.letter@mail.house.gov
Counsel for U.S. House of
Representatives

/s/ Matthew S. Hellman
Matthew S. Hellman

